BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that the original
and 2 copies of the foregoing Motion for Leave to File
Brief as Amicus Curiae and Brief for Members of the
Pennsylvania General Assembly, as Amicus Curiae in
Support of Applicants/Petitioners in No. 20A98, Mike
Kelly, U.S. Congressman, et al. v. Commonwealth of
Pennsylvania, et al., was sent via Next Day Service to
the U.S. Supreme Court, and 3 copies were sent via
Next Day Service and e-mail to the following parties
listed below, this 4th day of December, 2020:
Gregory H. Teufel
OGC Law, LLC
1575 McFarland Rd.
Suite 201
Pittsburgh, PA 15216
(412) 253-4622
gteufel@ogclaw.net
Counsel for Applicants IPetitioners

I

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001

I www.beckergallagher.com

8790 Governor's Hill Drive
' Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Michele D. Hangley
Robert A. Wiygul
John G. Coit
Christina C. Matthias
John B. Hill
Hangley Aronchick Segal Pudlin & Schiller
One Logan Square, 27th Floor
Philadelphia, PA 19103-6933
(215) 568-6200
mhangley@hangley.com
rwiygul@hangley.com
jcoit@hangley.com
cmatthias@hangley.com
jhill@hangley.com
Barry H. Berke
Dani R. James
Kramer Levin Naftalis & Frankel LLP
1177 Avenue of the Americas
New York, New York 10036
(212) 715-9308
bberke@kramerlevin.com
djames@kramerlevin.com
J. Bart DeLone
Chief Deputy Attorney General
Chief, Appellate Litigation Section
Sean A. Kirkpatrick
Senior Deputy Attorney General
Office of Pennsylvania Attorney General
15th Floor, Strawberry Square
Harrisburg, PA 17120
(717) 783-3226
jdelone@attorneygeneral.gov
skirkpatrick@attorneygeneral.gov
Counsel for Respondents Commonwealth of
Pennsylvania, Thomas W. Wolf, and Kathy Boockvar

Jonathan F. Bloom
Karl S. Myers
Spencer R. Short
Melissa L. Perry
Stradley Ronon Stevens and Young, LLP
2005 Market Street, Suite 2600
Philadelphia, PA 19103
jbloom@stradley.com
kmyers@stradley.com
sshort@stradley.com
mperry@stradley.com
Counsel for Respondent
Pennsylvania General Assembly
Charles R. Gerow, Esq.
Counsel of Record
4725 Charles Road
Mechanicsburg, Pennsylvania 17050
(717) 877-8194
cgerow@quantumcomms.com
Counsel for Amicus Curiae
Members of the Pennsylvania General Assembly

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on December 4, 2020.

onna J. Wolf

Becker Gallagher LegaU::hing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affi.ant on the date below designated.
Date:

�

k4t

d'OdV

d0-Jj, -��

Notary Public
[seal]

•

